IN THE SUPREME COURT OF THE UNITED STATES

Sean M. Donahue, Petitioner
v.
Pennsylvania
20-5118

Case Below: Superior Court of Pennsylvania, Harrisburg Office
(17 MDM 2019)

PETITION FOR REHEARING

1.

The Petitioner RESPECTFULLY OBJECTS to the Courts Order of October 5,

2020.

The Petition does not yet have a copy of the order and relies on the online

docket sheet instead.
2.

The Petitioner’s right to petition the Court comes from the US Constitution,

not the court.
3.

The Petitioner’s right to petition is not constrained by the ability to pay court

fees.
4.

The Petitioner avers that there is nothing in the constitution that allows

courts to even charge fees.

Sean M. Donahue - Petition for Rehearing 20-5118
Page 1 to 6

RECEIVED
OCT 14 2020

The Petitioner avers that his petition raised contradictions in circuit court

5.

rulings on US First Amendment issues in two separate circuits. The First
Amendment cannot have two meanings.
The Petitioner avers that his petition raised contradictions in Supreme Court

6.

of Pennsylvania rulings. The PA high court both found that its courts cannot hear
common law writs and that those same courts must hear common law appeals. This
contradiction was created because the state court of last resort fears the
consequences of striking the existing state PCRA statute and sending the
unconstitutional statutes back to the legislature.
The Petitioner avers that his petition raised violations of the supremacy

7.

clause by the Supreme Court of Pennsylvania.
The Petitioner avers that his petition raised acts of extraterritorial

8.

jurisdiction that were wrongly engaged in by the Supreme Court of Pennsylvania.
9.

The Petitioner avers that it is the US Senate that is supposed to hear all

constitutional questions but in the absence of the Senate’s willingness to do so
requires that such petitions be brought to the Supreme Court of the United States.
10.

The Court has misjudged the Petitioner and created a circumstance where he

is forced to waive issues because he cannot raise them to the highest court of the
land. Yet, he chooses not to waive these issues.
11.

Finally, the Petitioner avers that there is GREAT CONTRADICTION in this

Courts willingness to allow for the current goings on throughout the streets of the

o
Sean M. Donahue - Petition for Rehearing 20-5118
Page 2 to 5

nation as being First Amendment protected acts of free speech and expression,
while simultaneously refusing to hear his cases.
12.

If the current goings on throughout the streets of the US are free speech and

free expression, then this Court should immediately review both of the Petitioner’s
Pennsylvania criminal cases and should go as far as providing the Petitioner with
pen, paper, megaphone, speakers and unbridled web platform to say more. If Black
Lives Matter and ANTIFA speak is free speech and expression, then every word of
the Petitioner’s speech ever spoken, written, expressed or implied is inspirational
Sunday school speak, even in the eyes of the most teetotaling teetotaler.
13.

The Petitioner was under the impression that the greatest thing about this

country is that every loan citizen could gain access to the congress, the white house
and the courts. But that is clearly changing and the change is for the worse of the
future of the nation.
14.

If this Cour went back and revisited the Petitioner’s criminal cases, this

Court would see that the Petitioner’s petitions to this Court and the cases below
were harbengers that very accurately predicted that our nation was aggressively
heading into the violent uprising that we are now experiencing and the reason for
the nature of that uprising is because all three branches of the government have
made it impossible for individuals to attain relief.
15.

In 1820, many of today’s speech laws and other laws for which people are

regularly criminally prosecuted did not even exist. What is more, the average
American could not have imagined the government even having the right to pass

Sean M. Donahue - Petition for Rehearing 20-5118
Page 3 to 5

/

laws that infringe on the lives, decisions and behaviors of individuals in the areas of
speech, guns, family and prosperity. Yet, today it is often all the courts and
government do.
16.

In 1820, even if a man was convicted, he quickly returned to his status quo

ante upon completion of a sentence. That is not the case today. In today’s judiciary,
every sentence in a life sentence. So long as that is the case, every individual who
was ever convicted must expect to petition the courts forever for the rest of his/her
life.
17.

If the Court expects petitions to stop, then it must also expect the reasons for

petitions to stop. For that to happen, lifelong collateral consequences of criminal
convictions must stop.
18.

Alternatively, the nation must begin to think through the constitutionality of

providing an easily accessible path to individual sovereignty so that people with
convictions have an administrative and legal path through life that rids them of the
control, authority, jurisdiction and taxation of the US government and the
governments of the states, counties and municipalities, while allowing those
individuals to preserve their innate reserved rights, including both those that are
enumerated in the US and state constitutions and those that are not, such as rights
to lines of communication, air, air space, water, fish, game, minerals, space, &c...
19.

The Court must clearly identify, for the nation, a clear core source of rights

that both preexists any written constitution or declaration and to which the

Sean M. Donahue - Petition for Rehearing 20-5118
Page 4 to 5

i

Petitioner can turn since he cannot turn to the courts because the Court doesn’t
want to hear or address the issues he raises.
20, N The foregoing document is true in fact and belief and submitted under the
penalty of perjury.
Respectfully Submitted.

Od C JaJO
l5ate

Sean M. Donahue
625 Cleveland Street
Hazleton, PA 18201
570-454-5367
seandonahue630@gmflil.com

Sean M. Donahue - Petition for Rehearing 20-5118
Page 5 to 5

Search - Supreme Court of the United States

10/6/2020

I

Search documents in this case:

Search

No. 20-5118
Title:

Sean M. Donahue, Petitioner
v.
Pennsylvania

Docketed:

July 21, 2020

Lower Ct:

Superior Court of Pennsylvania, Harrisburg Office

Case Numbers:

(17 MDM 2019)

Decision Date:

May 30, 2019

Discretionary Court Decision

December 11, 2019

Date:

DATE

PROCEEDINGS AND ORDERS

Jul 13 2020

Petition for a writ of certiorari and motion for leave to proceed in forma
pauperis filed. (Response due August 20, 2020)
Motion for Leave to Proceed in Forma
Pauperis

Petition

Appendix

Proof of

Service
Aug 06 2020

Waiver of right of respondent Pennsylvania to respond filed.
Main Document

Aug 20 2020

DISTRIBUTED for Conference of 9/29/2020.

Oct 05 2020

The motion for leave to proceed in forma pauperis is denied, and the
petition for a writ of certiorari is dismissed. See Rule 39.8. As the petitioner
has repeatedly abused this Court's process, the Clerk is directed not to
accept any further petitions in noncriminal matters from petitioner unless the
docketing fee required by Rule 38(a) is paid and the petition is submitted in
compliance with Rule 33.1. See Martin v. District of Columbia Court of
Appeals, 506 U. S. 1 (1992) (per curiam).

https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/htmi/public/20-5118.html

1/2

* ' i0/6/2020

A-.

NAME

Search - Supreme Court of the United States

ADDRESS

PHONE

625 Cleveland Street

(570) 454-5367

Attorneys for Petitioner
Sean M. Donahue

Hazelton, PA 18201

Party name: Sean M. Donahue
Attorneys for Respondent
Ryan H. Lysaght

Dauphin County District Attorney's

717-787-6767

Office
101 Market Street, 2nd Floor
Harrisburg, PA 17101

7S
Party name: Pennsylvania

->

https://www.supremecourt.gov/search.aspx?filename=/docket/docketfiles/html/public/20-5118.html

2/2

